                     AUDIT REPORT

                Audit of NRC’s Process for Placing Documents
                in the ADAMS Public and Non-Public Libraries


                      OIG-07-A-16     September 6, 2007




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          September 6, 2007




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S PROCESS FOR PLACING DOCUMENTS
                            IN THE ADAMS PUBLIC AND NON-PUBLIC LIBRARIES
                            (OIG-07-A-16)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Process for Placing Documents in the ADAMS Public and Non-Public Libraries.

This report presents the results of the subject audit. Agency comments provided at the
exit conference on June 1, 2007, have been incorporated, as appropriate, into this
report. The agency provided formal comments, which appear in Appendix C of the
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915, or Beth Serepca, Team Leader, Security and Information Management
Team, at 415-5911.

Attachment: As stated

cc:    V. Ordaz, OEDO
       M. Malloy, OEDO
       P. Tressler, OEDO
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
William M. McCabe, Chief Financial Officer
Margaret M. Doane, Acting, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
            Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



EXECUTIVE SUMMARY

        BACKGROUND

                The U.S. Nuclear Regulatory Commission (NRC) relies on an
                electronic recordkeeping system called the Agencywide Documents
                Access and Management System (ADAMS) to maintain its public
                and non-public official agency records. NRC staff decide whether
                official agency records should be publicly or non-publicly available
                based on agency criteria regarding document content. NRC
                historically has strived for openness with the public. Since the
                events of September 11, 2001, however, the agency has become
                more restrictive in what it makes available to the public.

                ADAMS has four libraries. Two libraries, the ADAMS Main Library
                and the Legacy Library, are accessible to NRC staff but not to the
                public. These libraries contain both public and non-public records.
                The other two libraries, the Publicly Available Records System and
                the Public Legacy Library, contain public records only.

        PURPOSE

                The audit objective was to determine the effectiveness and
                consistency by which documents are profiled1 and processed for
                entry into the public or non-public ADAMS libraries.

        RESULTS IN BRIEF

                NRC profiles most documents appropriately for inclusion in public
                versus non-public ADAMS libraries; however:

                 The rationale for public versus non-public placements is not
                  always clearly articulated in the agency’s guidance, and
                  documents are sometimes miscategorized.

                 NRC needs to improve its quality control approach to ensure
                  proper profiling of ADAMS records as public or non-public.




1
 Profile information is descriptive information about the record, such as document title,
sensitivity, availability (public or non-public), document date, ADAMS accession number, and
number of pages.

                                                 i
            Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



                Rationale for Public Versus Non-Public Placements Is Not
                Always Clearly Articulated in Guidance

                NRC profiles most ADAMS records appropriately as public or non-
                public. However, the Office of the Inspector General (OIG) found
                that agency guidance did not explain the basis for placing
                documents in the public or non-public libraries. The rationale for
                placing about 14 percent of the non-public documents and about 17
                percent of the public documents was not clearly articulated in the
                guidance, and OIG also identified several specific instances of
                miscategorized documents. This lack of clear rationale in the public
                versus non-public profiling process occurs because agency
                guidance on the subject is not consolidated and, in some cases, is
                outdated. Furthermore, NRC does not offer training on making
                public versus non-public determinations. As a result, NRC risks
                releasing sensitive information to the public, which can impact
                public safety. The agency also risks unnecessarily withholding
                non-sensitive information, which can undermine public confidence
                in NRC as a fair and unbiased regulator.

                Improved Quality Control Approach Is Needed To Ensure
                Proper Profiling of ADAMS Records

                NRC needs to improve its quality control approach to ensure proper
                profiling of ADAMS records as public or non-public. Specifically, (1)
                the agency does not conduct regular reviews of all documents
                placed in ADAMS to ensure proper placement in either the public or
                non-public ADAMS libraries; (2) document originators do not
                always complete NRC Form 665, an agency requirement; and (3)
                some offices – which have instructed the Office of Information
                Services (OIS) to intercept their incoming mail, determine
                availability, and add it to ADAMS – do not routinely review whether
                OIS has made the appropriate availability determination or follow
                up on items designated non-public pending review.2

                These conditions exist because the agency does not require
                documentation explaining why ADAMS documents were
                designated as public versus non-public and has not clearly
                communicated quality control expectations to staff. As a result,
                NRC cannot assess if it is meeting its criteria for ADAMS document
                profiling and risks both inappropriate release of information to the
                public and unnecessary withholding of information that should be
                publicly available.

2
  Non-public pending review is the category NRC uses to designate items as non-public until the
responsible office reviews it and makes a final determination concerning public or non-public
availability.

                                                 ii
   Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



RECOMMENDATIONS

      This report makes eight recommendations to support the public
      versus non-public profiling process for ADAMS records. A
      consolidated list of recommendations appears in Section V of this
      report.

AGENCY COMMENTS

      At an exit conference held on June 1, 2007, agency managers
      provided comments concerning the draft report. We modified the
      report in response to the comments, as we deemed appropriate.
      NRC reviewed these modifications and opted to submit formal
      comments, which appear in Appendix C of this report.




                                       iii
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries




                   [Page intentionally left blank.]




                                    iv
      Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



ABBREVIATIONS AND ACRONYMS

         ADAMS            Agencywide Documents Access and Management
                          System

         E-RIDS           Electronic Regulatory Information Distribution System

         MD               Management Directive and Handbook

         NRC              U.S. Nuclear Regulatory Commission

         OIG              Office of the Inspector General (NRC)

         OIS              Office of Information Services

         PII              Personally Identifiable Information

         SUNSI            Sensitive Unclassified Non-Safeguards Information




                                          v
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries




                   [Page intentionally left blank.]




                                    vi
           Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



TABLE OF CONTENTS


    EXECUTIVE SUMMARY.........................................................................i

    ABREVIATIONS AND ACRONYMS ......................................................v

    I.      BACKGROUND .............................................................................1

    II.     PURPOSE......................................................................................2

    III.    FINDINGS ......................................................................................3

            A.     RATIONALE FOR PUBLIC VERSUS NON-PUBLIC PLACEMENTS IS
                   NOT ALWAYS CLEARLY ARTICULATED IN GUIDANCE ....................3

            B.     IMPROVED QUALITY CONTROL APPROACH IS NEEDED TO
                   ENSURE PROPER PROFILING OF ADAMS RECORDS .................10

    IV.     AGENCY COMMENTS ................................................................16

    V.      CONSOLIDATED LIST OF RECOMMENDATIONS ....................17

APPENDIXES

    A.      SCOPE AND METHODOLOGY...................................................19

    B.      FORMS 665S AND 665P .............................................................21

    C.      AGENCY COMMENTS ................................................................23




                                                   vii
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries




                   [Page intentionally left blank.]




                                    viii
             Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



I.    BACKGROUND

                NRC has relied, since April 2000, on an electronic recordkeeping
                system called ADAMS to maintain its public and non-public official
                agency records.3 As of March 2007, ADAMS held about 821,000
                records. During the 6-month period from mid-September 2006
                through mid-March 2007, an average of 5,883 new records were
                added to ADAMS each month, and about 50 percent of these were
                made public. 4

                ADAMS holds records generated both externally and internally.
                The term externally generated records refers to materials that are
                developed outside of the agency and sent to NRC. These items
                include correspondence from licensees, the public, other Federal
                agencies, research laboratories, and foreign governments.
                Internally generated records are materials developed within NRC
                such as correspondence to licensees or to the public, policy
                papers, bulletins, and inspection reports.

                Public and Non-Public Records

                NRC staff decide whether official agency records should be publicly
                or non-publicly available based on agency criteria regarding
                document content. NRC historically has strived for openness with
                the public. Since the events of September 11, 2001, however, the
                agency has become more restrictive in what it makes available to
                the public. Prior to September 11, the agency’s policy was to
                automatically make information publicly available that was
                anticipated to be of interest to the public without anyone having to
                file a Freedom of Information Act request. Following September
                11, the agency revised its standard for withholding information from
                the public to include information that “could reasonably be expected
                to be useful to terrorists in planning or executing an attack.” Now,




3
  Official agency records are all books, papers, maps, photographs, and other documentary
materials made or received by a Government agency in connection with the transaction of public
business and preserved by that agency as evidence of the organization, functions, policies,
decisions, procedures, operations, or other Government activities or because of the informational
value of data they contain.
4
  ADAMS does not hold records containing classified, safeguards, or allegations information, and
does not hold most Office of Investigations or Office of the Inspector General records or records
on personnel matters. (Safeguards information specifically identifies the detailed security
measures of a licensee or an applicant for the physical protection of special nuclear material; or
security measures for the physical protection and location of certain plant equipment vital to the
safety of production or utilization facilities.)

                                                 1
         Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



            certain items that were once publicly available, such as information
            on plant configurations or conditions that could be useful to an
            adversary, are considered sensitive and are routinely designated as
            non-public.

            ADAMS has four libraries. Two libraries, the ADAMS Main Library
            and the Legacy Library, are accessible to NRC staff but not to the
            public. These libraries contain both public and non-public records.
            The other two libraries, the Publicly Available Records System and
            the Public Legacy Library, contain public records only. NRC staff
            can access all ADAMS libraries via the agency’s Intranet.
            Members of the public can access the public libraries via NRC’s
            Website using a standard Web browser, but cannot access the
            non-public libraries.

            OIS estimates it will spend $705,000 in FY 2007 to maintain and
            operate ADAMS, $730,000 to enhance the system, and $3 million
            for OIS activities related to processing documents into ADAMS
            records. There are currently 18 staff assigned to support system
            operations, enhancements, and program management and 2 staff
            working on the activities necessary to prepare a business case for
            replacing the current ADAMS system with new technology.

II.   PURPOSE

            The audit objective was to determine the effectiveness and
            consistency by which documents are profiled and processed for
            entry into the public or non-public ADAMS libraries. The audit was
            initiated in response to a letter sent to NRC’s Inspector General by
            a public interest group. The letter reported several specific
            instances of NRC miscoding documents as non-publicly available
            when the items should have been publicly available. Appendix A
            contains information on the audit scope and methodology.




                                             2
        Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



III. FINDINGS

           NRC profiles most documents appropriately for inclusion in public
           versus non-public ADAMS libraries; however:

            The rationale for public versus non-public placements is not
             always clearly articulated in the agency’s guidance, and
             documents are sometimes miscategorized.
            NRC needs to improve its quality control approach to ensure
             proper profiling of ADAMS records as public or non-public.

           By consolidating agency guidance and improving agencywide
           quality control expectations, NRC will better assure that its records
           are designated public and non-public in accordance with agency
           guidance while protecting sensitive information from improper
           disclosure.

   A.   Rationale for Public Versus Non-Public Placements Is Not Always
        Clearly Articulated in Guidance

           NRC profiles most ADAMS records appropriately as public or non-
           public. However, the Office of the Inspector General (OIG) found
           that agency guidance did not explain the basis for placing
           documents in the public or non-public libraries. The rationale for
           placing about 14 percent of the non-public documents and about 17
           percent of the public documents was not clearly articulated in the
           guidance, and OIG also identified several specific instances of
           miscategorized documents. This lack of clear rationale in the public
           versus non-public profiling process occurs because agency
           guidance on the subject is not consolidated and, in some cases, is
           outdated. Furthermore, NRC does not offer training on making
           public versus non-public determinations. As a result, NRC risks
           releasing sensitive information to the public, which can impact
           public safety. The agency also risks unnecessarily withholding
           non-sensitive information, which can undermine public confidence
           in NRC as a fair and unbiased regulator.

           Agency Guidance

           NRC guidance to staff on what agency information should be
           publicly and non-publicly available is contained in Management
           Directive and Handbook (MD) 3.4, Release of Information to the
           Public; Yellow Announcement 2005-077, Policy Revision: NRC
           Policy and Procedures for Handling, Marking, and Protecting
           Sensitive Unclassified Non-Safeguards Information (SUNSI);
           Yellow Announcement 2006-069, Protection of Personally

                                            3
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



   Identifiable Information; SECY-04-0191, Withholding Sensitive
   Unclassified Information Concerning Nuclear Power Reactors from
   Public Disclosure; and Attachment 2 to RIS 2005-31, Control of
   Security-Related Sensitive Unclassified Non-Safeguards
   Information Handled by Individuals, Firms, and Entities Subject to
   NRC Regulation of the Use of Source, Byproduct, and Special
   Nuclear Material.

   Last revised in December 1999, MD 3.4 states that it is NRC’s
   policy to make available to the public as much as possible of its
   health and safety mission-related information. MD 3.4 includes a
   53-page listing of office-specific products that should be routinely
   released to the public and several pages of materials that are not
   routinely released to the public. Products routinely released,
   according to MD 3.4, include inspection reports, correspondence
   related to license amendments, NRC bulletins and licensee
   responses, and Commission meeting transcripts. Products not
   routinely released, according to MD 3.4, include records sent to or
   received from foreign governments, correspondence with other
   Federal agencies, predecisional information, and routine
   administrative records.

   The agency’s SUNSI policy, issued in October 2005, focuses on
   seven categories of information that should not be released
   publicly. These categories are allegation information; investigation
   information; security-related information; proprietary information;
   Privacy Act information; Federal, State, Foreign Government, and
   International Agency Controlled Information; and sensitive internal
   information. SUNSI is defined as, “any information of which the
   loss, misuse, modification, or unauthorized access can reasonably
   be foreseen to harm the public interest, the commercial or financial
   interests of the entity or individual to whom the information pertains,
   the conduct of NRC and Federal programs, or the personal privacy
   of individuals.”

   NRC also directs employees to protect personally identifiable
   information from public release, in accordance with Office of
   Management and Budget guidance. According to Yellow
   Announcement 2006-069, personally identifiable information is
   information that can be used to identify or contact a person
   uniquely or can be traced back to a specific individual (i.e., a
   person’s name in combination with other information such as
   relatives’ names, postal address, home e-mail address, home or




                                    4
             Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



                cellular telephone number, social security number, date or place of
                birth, mother’s maiden name, driver’s license number, credit card
                information, or any information that would make the individual’s
                identity easily traceable).

                Inconsistencies and Miscategorizations Occur

                NRC profiles most ADAMS records appropriately as public or non-
                public; however, some inconsistencies and miscategorizations
                occur.

                Random Sample

                Auditors randomly sampled 10 percent of the 6,5595 public and
                non-public official agency records added to ADAMS in
                December 2006 to assess whether their public or non-public
                designation was in accordance with agency guidance.6 This review
                found that the rationale for designating about 14 percent of the non-
                public documents and about 17 percent of the public documents as
                such was not clearly articulated in MD 3.4, SUNSI, or Personally
                Identifiable Information (PII) guidance. Auditors did not consider
                these items to be misplaced in either the public or non-public
                libraries, but instead focused on the absence of clear, criteria-
                based justification for making the documents publicly versus non-
                publicly available. The non-public placements were questioned by
                auditors because (1) similar items were available in public ADAMS,
                (2) the items were addressed to a public interest group, or (3) the
                item corresponded to an MD 3.4 category, suggesting it ought to be
                public. The public placements were questioned in most cases
                because (1) MD 3.4 did not mention the product type reviewed or
                (2) the submitting office was not listed in MD 3.4.

                Examples of questionable non-public placements included an NRC
                letter to a Michigan public interest group which included the
                handwritten notation, “public,” at the bottom or the page, non-
                sensitive inspection reports, and a county’s emergency response
                plan, which the county considers public information. Examples of
                questionable public placements included materials corresponding
                to parts of the Code of Federal Regulations that are not listed in MD
                3.4, such as correspondence related to license renewal or early site
                applications, information concerning a licensee’s credit report, and

5
  The 6,559 figure includes both new records added to ADAMS and old “retrofit” records that
predate ADAMS and which NRC has recently approved for scanning and inclusion in ADAMS.
6
  To conduct the review, auditors located the sampled documents in ADAMS, examined the
content, and attempted to find criteria within MD 3.4, SUNSI, and PII guidance that would justify
its placement in public or non-public ADAMS.

                                                 5
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



   instrument calibration records for thermometers and gauges.
   Auditors did not perceive any risk associated with these public
   placements, but noted that the agency’s criteria for making public
   placements did not explain why these placements would be proper.

   Non-Random Examples

   Auditors also learned of specific documents incorrectly profiled for
   public or non-public availability in ADAMS. In August 2006, a
   public interest group contacted OIG to relay two specific examples
   of documents miscoded as non-publicly available in ADAMS when
   they should have been publicly available. The representative said
   that this has happened before and that whenever it does, he
   contacts NRC to ask for a correction. In his experience, the agency
   always reviews and corrects the matter promptly; however, the
   errors caused him to question how many other documents are
   miscoded but not caught.

   Auditors also identified examples of document types that were
   treated inconsistently in terms of the public or non-public
   designation. These included safety inspection reports, staff trip
   reports, and delegations of authority. Auditors could not determine
   any difference between these items that would justify this different
   treatment in terms of availability.

   Another example of inconsistent treatment pertains to emergency
   preparedness exercise materials, which are sometimes placed into
   non-public ADAMS and sometimes not placed into ADAMS at all,
   depending on how the licensee submits them to NRC. In January
   2007, a power plant licensee mailed information it deemed
   sensitive concerning an upcoming emergency preparedness
   exercise to NRC in accordance with agency requirements. The
   licensee requested that the document be non-public and,
   furthermore, that it not be provided to NRC exercise participants
   until after the exercise, which was to occur in April. This precaution
   was intended to enhance the integrity of the emergency
   preparedness exercise. While the letter was placed in non-public
   ADAMS in accordance with the licensee’s request, it was also
   made available to all NRC staff without restriction, including those
   who would be exercise participants.

   An NRC emergency preparedness inspector acknowledged that the
   agency is inconsistent in handling emergency preparedness
   exercise information submitted by licensees. He said that when a
   licensee provides this information in hard copy to an emergency
   preparedness inspector, it will not be placed in ADAMS at all, but

                                    6
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



   that when the licensee mails it to headquarters, it is placed in
   ADAMS. The inspector said that he and other inspectors have
   sought instruction from headquarters on how to handle emergency
   preparedness exercise materials, but it was never provided.

   Guidance and Training Are Needed

   Inconsistent and incorrect public and non-public designations are
   made because NRC has not provided consolidated, up-to-date
   guidance to staff on what items should be public or non-public and
   NRC does not offer training on the public versus non-public
   decisionmaking process.

   Outdated Guidance

   NRC guidance on making public versus non-public determinations
   is not consolidated and MD 3.4 is outdated and sometimes
   inaccurate.

   It is essential that staff undertake a hierarchical approach to making
   public versus non-public determinations in that first, an employee
   must decide whether an item is sensitive per SUNSI or personally
   identifiable information criteria. If an item is sensitive it will need to
   be non-public; however, if it is not sensitive the employee must then
   apply MD 3.4 criteria to assess whether it should be made public.

   Despite the importance of a hierarchical approach, it is not
   adequately addressed in agency guidance. First, MD 3.4 predates
   the agency’s SUNSI and PII policies and therefore does not
   mention these sets of screening criteria. Second, neither the
   agency’s guidance on SUNSI nor its guidance on PII fully describes
   the relationship among the three types of criteria. While PII
   guidance includes a reference to SUNSI, it does not mention MD
   3.4, whereas SUNSI guidance refers to MD 3.4 but not to PII.
   Finally, NRC Form 665, ADAMS Document Submission, requires
   proof that a SUNSI review occurred for NRC-generated documents
   or packages being routed for concurrence and for paper documents
   and packages that contain a mix of paper and electronic documents
   submitted to ADAMS. However, the form does not require
   evidence that a personally identifiable information review was




                                    7
            Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



               conducted. Appendix B contains copies of two versions of
               Form 665 used by agency staff; 665P is used for packages7 of
               documents added to ADAMS and 665S is used for single
               documents.

               MD 3.4 also contains information that is no longer accurate. For
               example, this guidance states that power plant fire protection plans,
               Final Safety Analysis Reports, and emergency plans are routinely
               made public even though this is no longer the case. Organizational
               changes that have occurred since the directive’s issuance in 1999
               mean that office names and record types are not all reflected, and
               while MD 3.4 strives to be all-inclusive, it is not.

               Because MD 3.4 is inaccurate, staff do not use it to make public
               versus non-public decisions. Instead, based on OIG’s staff
               interviews, staff focus primarily on the need to protect sensitive
               information. When it comes to deciding what to release to the
               public, they rely on past practice, on-the-job experience, guidance
               from co-workers, and the concurrence process to make the right
               determination.

               Agency comments provided subsequent to the exit conference
               stated that while MD 3.4 does not refer to PII because the directive
               predated this category of information as a Federal policy issue, MD
               3.4 does refer to personal information as a screening criteria. In
               addition, the agency comments stated that MD 3.4 is currently
               being rewritten to include recent policy developments.

               Training

               NRC offers six ADAMS training courses, but none on the
               decisionmaking process for determining public and non-public
               availability. According to a headquarters training center staff
               member, the courses focus on the mechanics of ADAMS and not
               ADAMS related policies.

               Impact on Safety and Public Confidence

               As a result of document profiling inconsistencies and errors, NRC
               risks releasing sensitive information to the public, which can impact
               public safety. The agency also risks unnecessarily withholding
               non-sensitive information, which can undermine public confidence
               in NRC as a fair and unbiased regulator. During NRC’s 2007

7
 A package stores a group of pointers to related documents. These may include a main
document which is a cover letter, and one or more attachments. Large documents may be
divided into smaller files that are packaged together to make them easier to work with.

                                                8
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



   Regulatory Information Conference, public stakeholders reiterated
   the importance of open communications with NRC, noting that
   public access to information remains a strong concern.

   Recommendations

   OIG recommends that the Executive Director for Operations:

   1.    Update MD 3.4 so it reflects the underlying principles of how to
         determine whether an official agency record should be public
         or non-public, and describes the relationship with other agency
         reviews for information sensitivity (e.g., personally identifiable
         information, SUNSI).

   2.    Create a supplemental guidance document that is updated
         routinely to include, to the extent practicable, categories of
         information routinely not made public.

   3.    After MD 3.4 and supporting guidance are updated and
         consolidated, conduct a training needs analysis and develop
         appropriate training for staff with responsibilities for
         determining whether ADAMS records should be publicly or
         non-publicly available.




                                    9
            Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



     B.    Improved Quality Control Approach Is Needed To Ensure Proper
           Profiling of ADAMS Records

               NRC needs to improve its quality control approach to ensure proper
               profiling of ADAMS records as public or non-public. Specifically, (1)
               the agency does not conduct regular reviews of all documents
               placed in ADAMS to ensure proper placement in either the public or
               non-public ADAMS libraries; (2) document originators do not
               always complete NRC Form 665, an agency requirement; and (3)
               some offices – which have instructed OIS to intercept their
               incoming mail, determine availability, and add it to ADAMS – do not
               routinely review whether OIS has made the appropriate availability
               determination or follow up on items designated non-public pending
               review.

               These conditions exist because the agency does not require
               documentation explaining why ADAMS documents were
               designated as public versus non-public and has not clearly
               communicated quality control expectations to staff. As a result,
               NRC cannot assess if it is meeting its criteria for ADAMS document
               profiling and risks both inappropriate release of information to the
               public and unnecessary withholding of information that should be
               publicly available.

               Quality Control Expectations

               Quality control strategies are essential to ensure that staff follow
               agency guidance on when to profile ADAMS records as public or
               non-public. Such strategies include (1) regular reviews of ADAMS
               documents to determine how well staff are applying NRC’s criteria
               for public and non-public designations, (2) provision of clear
               instructions to staff who have responsibilities associated with
               completing the public versus non-public portion of the ADAMS
               document profile, and (3) office verification and followup in cases
               where OIS profiles incoming mail as public, non-public, or non-
               public pending review and adds the document to ADAMS before
               the office has a chance to see it.

               Agency guidance is limited on what quality control measures are
               needed to ensure that ADAMS documents are profiled correctly for
               public or non-public availability, although the agency does
               communicate some expectations in the ADAMS Desk Reference
               Guide and in ADAMS training courses. This guidance states that
               document originators8 must complete NRC Form 665 for every
8
  Document originator is the term used to indicate the person who wrote the document and is
therefore most familiar with the document content.

                                                10
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



   record added to ADAMS. This form asks the originator to verify
   that the SUNSI review occurred and to specify key profiling
   elements including whether the record is to be publicly or non-
   publicly available.

   In addition, the guidance states that offices, regions, and OIS are
   jointly responsible for adding documents to ADAMS and ensuring
   that they are correctly profiled for public or non-public availability.
   This cooperative approach is particularly important for offices that
   instruct OIS to intercept their external mail and assign document
   availability as public, non-public, or non-public pending review.
   While OIS makes this initial designation based on instructions
   provided by the addressee office, the addressee office is then
   expected to review the profiles for appropriateness and make the
   final determination concerning these items. Until an office makes
   this final determination, the items will remain inaccessible to the
   public, even if the ultimate decision is to release them publicly.

   Improved Quality Control Measures Are Needed

   NRC needs to improve its quality control measures to ensure
   proper profiling of ADAMS records as public or non-public.
   Specifically, (1) NRC does not conduct regular reviews of all
   documents placed in ADAMS to ensure proper placement in either
   the public or non-public ADAMS libraries; (2) document originators
   do not always complete NRC Form 665 as required; and (3) some
   offices do not routinely review their external mail, which OIS profiles
   and adds to ADAMS, to verify and follow up on OIS’s designation of
   these records as public, non-public, or non-public pending review.

   No Regular Review of ADAMS Records

   NRC does not conduct regular reviews of ADAMS records to
   assess whether their designation as public or non-public is
   appropriate. OIS assigns one full-time employee to perform quality
   control activities on ADAMS records. This employee reviews
   ADAMS profiles to ensure they are filled out completely, conducts
   searches to identify problem areas, and generates reports on the
   timeliness with which NRC records are made public. However, the
   employee does not attempt to assess whether agency staff are
   applying criteria correctly in designating records as public or non-
   public. According to agency comments provided subsequent to the
   exit conference, there are also many OIS employees and
   contractors who perform various ADAMS quality control activities
   as part of their routine duties.



                                    11
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



   OIG acknowledges that it would currently be difficult for NRC
   routinely to review whether ADAMS documents are profiled
   correctly as public or non-public due to a lack of information
   available to support such reviews. Document originators are not
   required to record their rationale for making a document public or
   non-public; yet, their justification for making items public versus
   non-public is not always readily apparent. Similar types of records
   are found in both public and non-public ADAMS, and it is not
   evident, based on the information in the ADAMS profile, why these
   placements were made. Other items in the public library do not fit
   any of the MD 3.4 categories and it is difficult to determine, in some
   cases, why a document was made public. For example, as part of
   its random sampling of ADAMS documents, OIG found four
   instrument calibration records in public ADAMS, but could not
   identify any MD 3.4 category that suggested this type of information
   ought to be public. An agency manager noted that calibration
   records are important in connection with planning for a high-level
   waste repository, which is an MD 3.4 category. The manager
   speculated that this could be the underlying rationale for placing the
   reports in public ADAMS, but was not certain.

   Form 665 Not Completed

   Despite agency guidance stating that document originators
   complete a Form 665 for every record added to ADAMS, this does
   not always occur. OIG interviewed 25 NRC employees in 16
   offices who had job responsibilities associated with ADAMS records
   to assess their usage of Form 665. Staff from only seven offices
   reported routinely using Form 665 according to agency guidance
   (document originator completes form for each document submitted
   to ADAMS), while staff from the other nine offices described less
   frequent, inappropriate (e.g., Form 665 completed by administrative
   staff instead of document originator), or no usage of the form at all
   (see table 1 for a summary of office practices).




                                    12
            Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries




Table 1. Office Use of Form 665


    Office Routinely Uses According to Agency Guidance                                  7

    Office Sometimes Uses                                                              4

    Office Uses Alternative                                                            2

    Office Secretary Completes With Verbal Instruction From
                                                                                       1
    Document Originator
    Office Secretary Completes With No Instruction From
                                                                                       1
    Document Originator

    Office Does Not Use Form 665 or Alternative                                         1

    TOTAL OFFICES ASSESSED                                                             16

               Profiles Not Reviewed

               Although the process by which OIS profiles external mail depends
               on offices to review the profiles to verify they are correct and
               finalize items marked non-public pending review, a number of
               offices do not perform this review. After OIS assigns availability to
               intercepted mail based on office instructions, a notice is sent to the
               addressee and/or a predefined distribution list of NRC employees
               and organizations via the Electronic Regulatory Information
               Distribution System (E-RIDS) that the record is in ADAMS.

               NRC recently discovered a backlog of approximately 16,000
               documents assigned non-public pending review status, indicating
               that offices were not routinely reviewing their E-RIDS mailboxes to
               make final determinations on items marked non-pending public
               review.9 OIS subsequently sent an e-mail to all offices asking them
               to take action concerning these documents. Offices were also
               reminded that to avoid future backlogs, E-RIDS mailboxes should
               be routinely checked so that items marked non-public pending
               review can be assigned final availability status. OIS could not
               provide a breakdown of how long the 16,000 documents had been
               awaiting this type of review, but an OIS employee said that some of
               the documents have been in that category since 2005.

9
  The OIS employee also explained that not all of the 16,000 documents represented incoming
mail that OIS had screened and designated as non-public pending review. A portion of these are
records created by staff and profiled as non-public pending review in order to flag these
documents as still needing a final availability determination.

                                                13
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



   OIG interviewed staff from three headquarters offices that have OIS
   profile their external mail and found a lack of clarity concerning the
   E-RIDS review process:

    One individual reported regularly reviewing the E-RIDS mailbox
     and forwarding any E-RIDS notifications to the subject matter
     expert for review.

    Another reported that while the E-RIDS mailbox is checked
     several times daily, the notifications are not reviewed for non-
     public pending review status. Instead, the subject line is
     scanned and the item is forwarded to the office director who has
     an interest in the subject matter.

    Only one individual was aware of the E-RIDS review
     requirement; this was because her office had recently received
     the OIS e-mail reporting the backlog and she had been
     assigned to clear it up.

   Agency Needs To Document and Maintain Rationale for
   Making Records Public and Non-Public and Better
   Communicate Expectations

   NRC does not routinely assess whether NRC staff are correctly
   applying the agency’s criteria for making records public or non-
   public because document originators are not required to record
   their rationale for designating a document as public or non-public.
   In addition, there is no tool to facilitate such a review. While Form
   665 could serve as a useful tool on which to record the basis for
   why an item is designated as public or non-public, the form does
   not request this type of information. Finally, there is no requirement
   to retain the form.

   In addition, NRC has not clearly communicated quality control
   expectations to staff. Although the ADAMS Desk Reference Guide
   and ADAMS training courses describe the importance of using
   Form 665, these materials do not convey requirements and there is
   no assurance that staff will be exposed to this information.

   Also not clearly conveyed is the requirement for offices to review
   their E-RIDS mail to verify that OIS availability profiling is correct or
   make final determinations on incoming mail profiled as non-public,
   pending review. While this expectation was recently conveyed in
   the e-mail to staff describing the backlog of 16,000 documents in
   non-public pending review status, the E-RIDS notices themselves
   do not instruct the recipient that such a step is needed.


                                    14
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



   Essentially, there is no red flag alerting staff that a document is in
   need of further review prior to being assigned a permanent
   availability.

   Agency Cannot Assess Its Practice

   Because NRC does not routinely review its records to ensure that
   they are properly profiled as public or non-public, it cannot gauge
   how successfully the criteria are applied or identify trends in
   miscategorization. Furthermore, by not following up on documents
   profiled in ADAMS as non-public pending review, NRC risks leaving
   documents that should be made public in a non-public status for an
   indefinite period of time.

   Recommendations

   OIG recommends that the Executive Director for Operations:

   4.    Develop a mechanism to indicate the rationale for a public or
         non-public designation. This rationale should be sufficiently
         detailed to allow for an assessment of whether agency criteria
         are being applied correctly.

   5.    Require offices to use the mechanism developed in response
         to recommendation 4 to provide the rationale for public or non-
         public designation of official agency records.

   6.    Conduct periodic assessments of the accuracy with which
         NRC staff are applying the agency’s criteria for designating
         records as public or non-public by assessing a random sample
         of records against the agency’s criteria for making these
         determinations.

   7.    Inform NRC office directors of the number of non-public
         pending review documents that have been awaiting review by
         their office for at least 30 days.

   8.    Add a non-public pending review category to E-RIDS
         notifications and clarify the language in the notifications to
         convey the need to finalize the document availability as either
         public or non-public.




                                    15
        Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries




IV.   AGENCY COMMENTS

           At an exit conference held on June 1, 2007, agency managers
           provided comments concerning the draft report. We modified the
           report in response to the comments, as we deemed appropriate.
           NRC reviewed these modifications and opted to submit formal
           comments, which appear in Appendix C of this report.




                                            16
      Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries



V. CONSOLIDATED LIST OF RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

         1.    Update MD 3.4 so it reflects the underlying principles of how to
               determine whether an official agency record should be public
               or non-public, and describes the relationship with other agency
               reviews for information sensitivity (e.g., personally identifiable
               information, SUNSI).

         2.    Create a supplemental guidance document that is updated
               routinely to include, to the extent practicable, categories of
               information routinely not made public.

         3.    After MD 3.4 and supporting guidance are updated and
               consolidated, conduct a training needs analysis and develop
               appropriate training for staff with responsibilities for
               determining whether ADAMS records should be publicly or
               non-publicly available.

         4.    Develop a mechanism to indicate the rationale for a public or
               non-public designation. This rationale should be sufficiently
               detailed to allow for an assessment of whether agency criteria
               are being applied correctly.

         5.    Require offices to use the mechanism developed in response
               to recommendation 4 to provide the rationale for public or non-
               public designation of official agency records.

         6.    Conduct periodic assessments of the accuracy with which
               NRC staff are applying the agency’s criteria for designating
               records as public or non-public by assessing a random sample
               of records against the agency’s criteria for making these
               determinations.

         7.    Inform NRC office directors of the number of non-public
               pending review documents that have been awaiting review by
               their office for at least 30 days.

         8.    Add a non-public pending review category to E-RIDS
               notifications and clarify the language in the notifications to
               convey the need to finalize the document availability as either
               public or non-public.




                                          17
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries




                   [Page intentionally left blank.]




                                    18
      Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries


                                                                                   Appendix A
SCOPE AND METHODOLOGY

         Auditors reviewed the ADAMS profiling process to determine the
         effectiveness and consistency by which documents are profiled and
         processed for entry into the public or non-public ADAMS libraries.
         This audit was initiated in response to a letter sent to NRC’s
         Inspector General reporting two specific instances of NRC
         miscoding documents as non-publicly available when the items
         should have been publicly available.

         The OIG audit team reviewed relevant criteria, including the
         ADAMS Desk Reference Guide; Management Directive 3.4,
         Release of Information to the Public; Yellow Announcement 2005-
         077, Policy Revision: NRC Policy and Procedures for Handling,
         Marking, and Protecting Sensitive Unclassified Non-Safeguards
         Information (SUNSI); and Yellow Announcement 2006-069,
         Protection of Personally Identifiable Information.

         Auditors interviewed OIS staff and document originators and
         administrative staff from 18 NRC offices, including the 4 NRC
         regional offices. Auditors also interviewed a public interest group
         representative and attended sessions addressing communications
         issues at the agency’s 2007 Regulatory Information Conference.

         Auditors analyzed a 10-percent random sample of all agency
         records added to ADAMS during December 2006 to determine the
         consistency by which documents are designated public and non-
         public according to current agency guidance. Auditors compared
         MD 3.4, SUNSI, and personally identifiable information criteria to
         each document to determine whether the agency’s categorization
         seemed appropriate.

         This work was conducted from December 2006 through
         March 2007, in accordance with generally accepted Government
         auditing standards. Those standards require that we plan and
         perform the audit to obtain sufficient, appropriate evidence to
         provide a reasonable basis for our findings and conclusions based
         on our audit objectives. We believe that the evidence obtained
         provides a reasonable basis for our findings and conclusions based
         on our audit objectives. The work was conducted by
         Beth Serepca, Team Leader; Judy Gordon, Audit Manager; and
         Jaclyn Storch, Management Analyst.




                                          19
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries




                   [Page intentionally left blank.]




                                    20
        Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries


                                                                                    Appendix B.
Forms 665S and 665P




                                            21
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries




                                    22
Audit of NRC’s Process for Placing Documents in the ADAMS Public and Non-Public Libraries


                                                                       Appendix C




                                    23
